      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




October 21, 2010

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /George M. Reeb/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Ryan White Title II AIDS Drug Assistance Program Funding in New
               Jersey (A-02-08-02007)


Attached, for your information, is an advance copy of our final report on Ryan White Title II
AIDS Drug Assistance Program funding in New Jersey. We will issue this report to the New
Jersey Department of Health and Senior Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or
through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-08-02007.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278



October 26, 2010

Report Number: A-02-08-02007

Poonam Alaigh, M.D., M.S.H.C.P.M., F.A.C.P.
Commissioner
New Jersey Department of Health and Senior Services
P.O. Box 360
Trenton, NJ 08625-0360

Dear Dr. Alaigh:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Ryan White Title II AIDS Drug Assistance
Program Funding in New Jersey. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact John J. Madigan, Audit Manager, at (518) 437-9390, extension 224, or through email at
John.Madigan@oig.hhs.gov. Please refer to report number A-02-08-02007 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Poonam Alaigh, M.D., M.S.H.C.P.M., F.A.C.P.


Direct Reply to HHS Action Official:

Team Leader, Compliance Team, OFAM/DFI
Health Resources and Services Administration
Parklawn Building, Room 11A-55
5600 Fishers Lane
Rockville, MD 20857
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




         REVIEW OF
     RYAN WHITE TITLE II
AIDS DRUG ASSISTANCE PROGRAM
   FUNDING IN NEW JERSEY




                      Daniel R. Levinson
                       Inspector General

                        October 2010
                        A-02-08-02007
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990,
P.L. No. 101-381, funds health care and support services for people who have HIV/AIDS and
who have no health insurance or are underinsured. As the Federal Government’s largest source
of funding specifically for people with HIV/AIDS, the CARE Act assists more than 500,000
individuals each year. Within the U.S. Department of Health & Human Services, the Health
Resources and Services Administration administers the CARE Act.

Title II of the CARE Act, sections 2611–2631 of the Public Health Service Act, provides grants
to States and territories to fund the purchase of medications through AIDS Drug Assistance
Programs (ADAP) and other health and support services. Title II grant funds may be used only
for individuals determined to meet medical and financial eligibility requirements. Additionally,
pursuant to 42 U.S.C. § 300ff-27(b)(6)(F), these grant funds may not be used to pay for items or
services that are eligible for coverage by other Federal, State, or private health insurance. This
provision is commonly referred to as the “payer of last resort” requirement.

During our audit period (April 1, 2003, through March 31, 2006), the New Jersey Department of
Health and Senior Services (the health department) claimed Title II drug expenditures totaling
$195,404,000.

OBJECTIVES

Our objectives were to determine, for grant years 2003–2005, whether the health department:

   •   complied with the Title II payer-of-last-resort requirement that funds not be used to pay
       for drugs that are eligible for coverage by other Federal, State, or private health insurance
       and

   •   used the Title II funds only for clients whose files contained the documentation needed to
       determine eligibility for the ADAP.

SUMMARY OF FINDING

For the 99 claims that we sampled, the health department (1) generally complied with the Title II
payer-of-last-resort requirement that funds not be used to pay for drugs that are eligible for
coverage by other Federal, State, or private health insurance and (2) generally complied with
ADAP eligibility requirements. However, for a portion of our audit period (April 1, 2003,
through June 30, 2004), the health department billed $2,498,819 to Title II for ADAP clients
who were covered by the Medicaid program. Because we did not contact private insurers to
determine whether ADAP clients had private insurance coverage, we would not have identified
any instances in which ADAP clients had such coverage but had not informed the health
department.


                                                 i
RECOMMENDATION

We recommend that the health department refund $2,498,819 to the Federal Government.

HEALTH DEPARTMENT COMMENTS

In written comments on our draft report, the health department described actions that it had taken
to address the issue we identified. The health department did not directly address our
recommendation. The health department’s comments are included in their entirety as the
Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the health department’s comments, we maintain that the health department
should refund $2,498,819 to the Federal Government.




                                                ii
                                          TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Title II Grant Funds .....................................................................................1
              Payer-of-Last-Resort Requirement ..............................................................1
              New Jersey’s AIDS Drug Assistance Program ............................................2

          OBJECTIVES, SCOPE, AND METHODOLOGY .................................................3
               Objectives ....................................................................................................3
               Scope ............................................................................................................3
               Methodology ................................................................................................3

FINDING AND RECOMMENDATION .........................................................................5

          IMPROPER TITLE II CLAIMS FOR MEDICAID BENEFICIARIES .................5

          RECOMMENDATION ...........................................................................................6

          HEALTH DEPARTMENT COMMENTS ..............................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................6

APPENDIX

          HEALTH DEPARTMENT COMMENTS




                                                                    iii
                                               INTRODUCTION

BACKGROUND

The Ryan White Comprehensive AIDS Resources Emergency (CARE) Act of 1990,
P.L. No. 101-381, funds health care and support services for people who have HIV/AIDS and
who have no health insurance or are underinsured. As the Federal Government’s largest source
of funding specifically for people with HIV/AIDS, the CARE Act assists more than 500,000
individuals each year. Within the U.S. Department of Health & Human Services (HHS), the
Health Resources and Services Administration (HRSA) administers the CARE Act.

Title II Grant Funds

Title II of the CARE Act, sections 2611–2631 of the Public Health Service Act, provides grants
to States and territories to fund the purchase of medications through AIDS Drug Assistance
Programs (ADAP) and other HIV/AIDS health and support services, such as outpatient care,
home and hospice care, and case management. Pursuant to section 2616(b) of the Public Health
Service Act (42 U.S.C. § 300ff-26(b)), to be eligible to receive assistance from a State under
Title II of the CARE Act, an individual must “(1) have a medical diagnosis of HIV disease; and
(2) be a low-income individual, as defined by the State.”

In New Jersey, the Department of Health and Senior Services (the health department)
administers the Title II program. During our audit period (April 1, 2003, through March 31,
2006), the health department claimed Title II drug expenditures totaling $195,404,000.

Payer-of-Last-Resort Requirement

Title II of the CARE Act stipulates that grant funds not be used to pay for items or services that
are eligible for coverage by other Federal, State, or private health insurance. This provision is
commonly referred to as the “payer of last resort” requirement. Specifically, section
2617(b)(6)(F) of the Public Health Service Act (42 U.S.C. § 300ff-27(b)(6)(F)) states:

    [T]he State will ensure that grant funds are not utilized to make payments for any item
    or service to the extent that payment has been made, or can reasonably be expected to
    be made, with respect to that item or service –
             (i) under any State compensation program, under an insurance policy, or under
             any Federal or State health benefits program; or
             (ii) by an entity that provides health services on a prepaid basis. 1



1
 Subsequent to our audit period, the Ryan White HIV/AIDS Treatment Modernization Act of 2006, §§ 204(c)(1)(A)
and (c)(3), P.L. No. 109-415 (Dec. 19, 2006), redesignated this provision as section 2617(b)(7)(F) (42 U.S.C.
§ 300ff-27(b)(7)(F)) and amended subparagraph (ii) to prohibit the State from using these grant funds for any item
or service that should be paid for “by an entity that provides health services on a prepaid basis (except for a program
administered by or providing the services of the Indian Health Service).”


                                                          1
In addition, HRSA Program Policy No. 97-02, issued February 1, 1997, and reissued as DSS 2
Program Policy Guidance No. 2 on June 1, 2000 (and included in section IV of HRSA’s CARE
Act Title II Manual (2003)), reiterates the statutory requirement that “funds received … will not
be utilized to make payments for any item or service to the extent that payment has been made,
or can reasonably be expected to be made …” by sources other than Title II funds. The guidance
then provides: “At the individual client level, this means that grantees and/or their
subcontractors are expected to make reasonable efforts to secure other funding instead of CARE
Act funds whenever possible.” Furthermore, in situations in which a client is eligible under
ADAP but later becomes retroactively eligible for Medicaid, HRSA’s ADAP Manual, section II,
chapter 3, page 3 (2003), provides that the State “should back-bill Medicaid for ADAP funds
expended during the retroactive coverage period.”

New Jersey’s AIDS Drug Assistance Program

New Jersey’s ADAP, the AIDS Drug Distribution Program, is operated under an agreement
between the health department and the State Medicaid agency, the Department of Human
Services. The health department determines patient eligibility and drug formulary decisions.
The State Medicaid agency pays drug claims to pharmacies, reports expenditure data, and
collects rebates from pharmaceutical manufacturers. 3 The health department reimburses the
State Medicaid agency for prescription claims and processing costs. The health department
subsequently receives Federal reimbursement for these costs through HHS’s Payment
Management System and details these expenditures on its annual financial status reports to
HRSA.

To ensure that the ADAP is the payer of last resort, the health department screens ADAP clients
on a monthly basis against a State Medicaid agency database of individuals enrolled in Medicaid
or the State’s drug assistance program. 4 On an annual basis, the health department reviews and
determines whether clients are still eligible for ADAP. In addition, the State Medicaid agency
contracts with Health Management Systems (HMS) to identify ADAP clients who have third-
party liability coverage. 5




2
    DSS is the Division of Service Systems, a component of HRSA’s HIV/AIDS Bureau.
3
    New Jersey has an “open” formulary that covers most U.S. Food and Drug Administration-approved medications.
4
 The State’s Pharmaceutical Assistance to the Aged and Disabled program provides coverage for prescription
drugs, insulin, and insulin supplies for eligible beneficiaries.
5
  HMS matches ADAP clients against a database that includes government plans, commercial insurance, casualty
insurance, and other third-party payors and initiates recovery payments from these third parties.

                                                        2
OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine, for grant years 2003–2005, whether the health department:

    •   complied with the Title II payer-of-last-resort requirement that funds not be used to pay
        for drugs that are eligible for coverage by other Federal, State, or private health insurance
        and

    •   used the Title II funds only for clients whose files contained the documentation needed to
        determine eligibility for the ADAP.

Scope

Our review covered the period April 1, 2003, through March 31, 2006 (grant years 2003–2005).
On its Federal financial status reports for that period, the health department claimed expenditures
totaling $103,708,030 for ADAP drugs dispensed. 6

We did not assess the health department’s or the State Medicaid agency’s overall internal
controls for administering Title II funds. Rather, we limited our review to gaining an
understanding of those significant controls related to the claiming of drug costs. Because of
concerns about protecting program clients’ personally identifiable information, we did not
contact private health insurance companies to determine whether clients had private health
insurance coverage. We conducted our fieldwork at the health department’s offices in
Mercerville, New Jersey, and at 12 pharmacies throughout the State.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   reviewed documentation provided by the health department for grant years 2003–2005,
        including notices of grant award, financial status reports and supporting accounting
        records, and the ADAP’s drug formulary (a list of drugs authorized for purchase by the
        program);

    •   held discussions with health department officials to identify policies, procedures, and
        guidance used to identify other insurance coverage and to bill ADAP drugs to other
        Federal, State, or private health insurance plans;




6
  The State’s ADAP uses funds from the Ryan White Title II program, pharmaceutical rebates, and third-party
recoveries to fund drug costs and uses the Medicaid system to process and pay pharmaceutical bills.

                                                        3
    •   held discussions with HMS officials to develop an understanding of HMS procedures
        used to recover drug costs from third parties liable for coverage;

    •   reviewed HMS documentation for contracts and recoveries for grant years 2003–2005;

    •   analyzed the health department’s procedures for accounting for and dispensing drugs to
        ADAP clients;

    •   visited a judgmentally selected sample of 12 pharmacies that distributed ADAP drugs to
        determine how the pharmacies dispensed and claimed ADAP drugs;

    •   obtained a file from the health department of 688,019 ADAP claims totaling
        $195,404,000 (including both Federal- and State-funded ADAP drugs);

    •   eliminated from the file 8,613 claims totaling $2,498,819 that the health department
        potentially should have retroactively billed to the State Medicaid agency;

    •   eliminated from the file 335,070 claims totaling $14,536,944 that had individual claim
        values below the average cost of $140.66;

    •   identified a sampling frame of 344,336 claims totaling $178,368,237 (including both
        Federal- and State-funded ADAP drugs);

    •   selected a simple random sample of 99 claims 7 from the 344,336 claims and, for each of
        the sampled claims:

            o reviewed the State Medicaid agency’s database to determine whether clients were
              enrolled in Medicaid,

            o reviewed the health department’s and HMS’s files to determine whether clients
              were enrolled in other health insurance plans,

            o reviewed ADAP eligibility records, and

            o reviewed the health department’s payment invoices to identify the cost of
              dispensed drugs; and

    •   obtained from the health department and validated a file of ADAP drug claims made on
        behalf of clients who had applied for and were later determined to be eligible for
        Medicaid.




7
 We initially selected a simple random sample of 100 claims. We subsequently eliminated one sampled claim that
was not in our population of interest.


                                                       4
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

                                 FINDING AND RECOMMENDATION

For the 99 claims that we sampled, the health department (1) generally complied with the Title II
payer-of-last-resort requirement that funds not be used to pay for drugs that are eligible for
coverage by other Federal, State, or private health insurance and (2) generally complied with
ADAP eligibility requirements. 8 However, for a portion of our audit period (April 1, 2003,
through June 30, 2004), the health department billed $2,498,819 to Title II for ADAP clients
who were covered by the Medicaid program. Because we did not contact private insurers to
determine whether ADAP clients had private insurance coverage, we would not have identified
any instances in which ADAP clients had such coverage but had not informed the health
department.

IMPROPER TITLE II CLAIMS FOR MEDICAID BENEFICIARIES

The payer-of-last-resort requirement set forth in section 2617(b)(6)(F) of the Public Health
Service Act provides that Title II funds not be used to pay for items or services that are eligible
for coverage under other Federal, State, or private health insurance. Furthermore, in situations in
which a client is eligible under ADAP but later becomes retroactively eligible for Medicaid,
HRSA’s ADAP Manual provides that the State should retroactively bill Medicaid for ADAP
funds expended during the retroactive coverage period.

Contrary to Federal requirements, for the period April 1, 2003, through June 30, 2004, the health
department billed 8,613 claims totaling $2,498,819 to Title II for ADAP clients who were
covered by the Medicaid program. These ADAP clients received drugs while they awaited a
determination from the State Medicaid agency regarding their Medicaid applications. Once
these individuals were determined eligible for the Medicaid program, the health department
should have retroactively billed the State Medicaid agency for ADAP drug costs incurred since
the dates of the individuals’ Medicaid applications.

Beginning in July 2004, the health department implemented a procedure to retroactively bill the
State Medicaid agency for ADAP claims paid on behalf of ADAP clients also enrolled in
Medicaid. 9 To identify these claims, the State Medicaid agency provides the health department
with a monthly computer-generated list of ADAP drug claims made on behalf of individuals
enrolled in the Medicaid program. However, the health department did not retroactively bill the

8
 The health department did not comply with the Title II payer-of-last resort requirement for 2 of the 99 sampled
claims. For one other sampled claim, the client was not eligible for ADAP benefits. The value of these three claims
was immaterial; therefore, we are not seeking a refund for the claims.
9
  In New Jersey, if an individual is determined eligible for the Medicaid program, the individual’s eligibility period
is retroactive to the date of the individual’s application for Medicaid benefits.

                                                           5
State Medicaid agency for similar ADAP claims submitted before July 2004. As a result, the
health department did not retroactively bill the State Medicaid agency for 8,613 ADAP claims
totaling $2,498,819 that were made on behalf of ADAP clients also enrolled in Medicaid.

RECOMMENDATION

We recommend that the health department refund $2,498,819 to the Federal Government.

HEALTH DEPARTMENT COMMENTS

In written comments on our draft report, the health department described actions that it had taken
to address the issue we identified. The health department did not directly address our
recommendation. The health department’s comments are included in their entirety as the
Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the health department’s comments, we maintain that the health department
should refund $2,498,819 to the Federal Government.




                                                6
APPENDIX
            APPENDIX: HEALTH DEPARTMENT COMMENTS 





                                    51- .1 :l!'eln :lJ".~
                     DEPARTMENT OF HEALTH AND SENIOR SERV i ces
                                             PO BOX 360
                                      TRENTON , N.J . 08625-0360
                                         www,oj.gov/heallh
  C IiRIS CHRISTIE

       -~                                   July 20, 20 Ia
  KIM G UAOAGNO                                                          POONAM ALAlGH, MD. MSHCPM, FACP
   U   GOV8f1101'"                                                                   OmrmllNiooor



Mr. James P. &lert
Regional Inspector General
  for Audit Services
Department ofHeilllh and HWllan Services
Office of Inspector General
Office ofAudit Services
Region n
Jacob l avits Federal Building
26 Federal Plaza - Room 3900
New York, New York 10278

Dear Mr. Edert:

      'In e Department of Health and Senior Services acknowledges the receipt of the audit of the
AIDS Drug Distribution Program (ADDP) for Ryan White (iscal yean; 2003-2005. For FY 2003, a
total of $2.498,8 19 was identified as having been paid by ADD P for claims that should have ~n
charged to Medicaid.

      The Dcpanmcnt of Health and Senior Services has contacted the New Jersey Department of
Hwnan St.'TVices, Division of Medical Assistance, to ascertain whether funds were inappropriately
charged dwing the period of the audit. It should be noted that beginning in State fiscal year 2005, a
State Appropriation in a dedicated line item was provided for the State share of Medicaid claims, so the
State has taken the necessary steps to assure that this issue will not arise again. On the issue of
recoupment, the St.1te expended $10.7 million in resources in State fiscal year 2005, which we believe
covers the timeframe in qUCS1ion.

     lbank you for your assistance with this matter. We will contact you once more information
becomes available.

                                                       Sincerely,



                                                       Poob
                                                       Commissioner
                                                                              SH
                                                                               dM.1':­
